Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ADVERSE EVENTS IN HOSPITALS:
  CASE STUDY OF INCIDENCE
     AMONG MEDICARE
   BENEFICIARIES IN TWO
    SELECTED COUNTIES




                    Daniel R. Levinson
                     Inspector General

                      December 2008
                     OEI-06-08-00220
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse hospitalizations involving HHS programs, including False
Claims Act, program exclusion, and civil monetary penalty hospitalizations. In connection
with these hospitalizations, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance,
publishes fraud alerts, and provides other guidance to the health care industry concerning
the anti-kickback statute and other OIG enforcement authorities.
Δ   E X E C U T I V E                            S U M M A R Y


                  OBJECTIVE
                  To estimate the incidence of adverse events for hospitalized Medicare
                  beneficiaries in two selected counties.


                  BACKGROUND
                  The term “adverse event” describes harm to a patient as a result of
                  medical care, such as infection associated with use of a catheter. The
                  term “never events” refers to a specific list of serious events, such as
                  surgery on the wrong patient, that the National Quality Forum (NQF)
                  deemed “should never occur in a healthcare setting.” The Tax Relief
                  and Health Care Act of 2006 (the Act) mandates that the Office of
                  Inspector General (OIG) report to Congress regarding the incidence of
                  never events among Medicare beneficiaries, payment by Medicare or
                  beneficiaries for services in connection with such events, and Centers
                  for Medicare & Medicaid Services (CMS) processes to identify events
                  and deny payment. This report is one in a series to fulfill requirements
                  in the Act. OIG work on this topic will continue through 2009.

                  We reviewed a random sample of 278 hospitalized Medicare
                  beneficiaries selected from all beneficiaries hospitalized in two selected
                  counties during a 1-week period in August 2008. Physician reviewers
                  determined whether an adverse event occurred, whether the event was
                  on NQF’s list of Serious Reportable Events or CMS’s list of
                  hospital-acquired conditions, and the level of harm to the patient based
                  on an established harm scale. To establish an estimated adverse event
                  incidence rate, we included events on the NQF and CMS lists and also
                  events resulting in the most serious categories on the harm scale
                  (prolonged hospital stay, permanent harm, life-sustaining intervention,
                  or death). We also determined whether events on the NQF and CMS
                  lists caused higher Medicare reimbursement. Lastly, we identified
                  additional events that resulted in temporary patient harm but were not
                  comparable to the more serious events in our overall rate.


                  FINDINGS
                  Fifteen percent of hospitalized Medicare beneficiaries in two
                  selected counties experienced an adverse event during their
                  hospital stays. Of the 278 Medicare beneficiaries in our sample,
                  41 experienced an adverse event during their hospital stay that met one
                  or more of our three criteria for an estimated adverse event rate of

OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   i
E X E C U T I V E              S U            M M A R Y


                   15 percent. Six of these forty-one patients experienced multiple adverse
                   events, for a total of 51 adverse events. Incidence rates for adverse
                   events that met our three criteria were as follows: fewer than 1 percent
                   of beneficiaries experienced an adverse event on NQF’s list of Serious
                   Reportable Events, 4 percent experienced an adverse event on CMS’s
                   list of hospital-acquired conditions, and 13 percent experienced an
                   adverse event resulting in the four most serious categories on the
                   patient harm scale. (Some adverse events met more than one criterion.)
                   Of adverse events on CMS’s list of hospital-acquired conditions and
                   NQF’s list of Serious Reportable Events, only one resulted in higher
                   Medicare reimbursement to the hospital.
                   Identified adverse events illustrate differences in the lists and
                   criteria that define adverse events. A difficulty in determining
                   adverse events incidence rates involves differences in the definitions
                   used by various entities. The NQF list of Serious Reportable Events
                   and the CMS list of hospital-acquired conditions often address the same
                   adverse event but define the event differently. For example, our sample
                   included two adverse events involving poor glycemic control, both of
                   which resulted in serious harm. However, because of differences in the
                   way specific adverse events are defined, one case met the criteria of
                   NQF’s list and the other met the CMS criteria.
                   An additional 15 percent of Medicare beneficiaries in the two
                   selected counties experienced events during their hospital stays
                   that resulted in temporary harm. In addition to the adverse events
                   previously discussed, another 15 percent of Medicare beneficiaries
                   experienced events classified as temporary harm requiring medical
                   intervention. This category of harm represents a wide array of events,
                   from swelling at a treatment site to low-level infections. In some cases,
                   the events resulted from standard medical treatment that caused an
                   undesirable outcome in the patient, such as an allergic reaction to
                   medication. Because these temporary events did not prolong the
                   hospital stay or result in permanent harm, they are not included in our
                   overall rate of adverse events. However, these events are of interest to
                   hospitals and others seeking to improve patient safety because they are
                   potential indicators of patient care problems and/or improvement
                   opportunities. For a number of these patients, physician reviewers
                   indicated that these temporary harm events could have developed into
                   more serious adverse events with a greater degree of harm without
                   timely intervention.


 OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   ii
E X C U T I V E            S U M M A R Y



                   CONCLUSION
                   The Act requires that OIG report to Congress regarding harm caused in
                   health care settings. This study is one of several designed to meet this
                   mandate, providing an estimate of the incidence of adverse events
                   among hospitalized Medicare beneficiaries in two selected counties.

                   Although these results are not nationally representative, the extent of
                   adverse events and temporary harm found in this case study
                   substantiates concerns about the incidence of adverse events in
                   hospitals and the importance of safety initiatives to reduce occurrences.
                   Our analysis also calls attention to the difficulty of determining what
                   events should be considered in an adverse event incidence rate and how
                   those events should be identified and defined.

                   The Act also directs OIG to make recommendations for such legislation
                   and administrative action as OIG determines is appropriate. The Act
                   specifically authorized funding to continue through calendar year 2009
                   and OIG will devote this funding to additional studies involving adverse
                   events. Future reports in this series will include recommendations as
                   appropriate.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   We received positive comments on a draft of this report from the Agency
                   for Healthcare Research and Quality and from CMS. CMS reiterated its
                   policies to encourage the prevention of adverse events, including the
                   provision to deny payment for care associated with hospital-acquired
                   conditions, and indicated that OIG identification of hospital-acquired
                   conditions and their effect on Medicare payment allowed for a deeper
                   understanding of the payment policy in practice. CMS also offered
                   clarification regarding one of the hospital-acquired conditions, catheter-
                   associated urinary tract infection, and recommended further evaluation
                   of this issue. OIG agrees that further evaluation is warranted and will
                   address this issue in future work in this series.




 OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    Fifteen percent of beneficiaries experienced an adverse event . . . 10

                    Identified adverse events illustrate differences in definitions . . . 15

                    Beneficiaries had additional events causing temporary harm . . . 16



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    Agency Comments and Office of Inspector General Response . . . 20



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    A: Tax Relief and Health Care Act of 2006 . . . . . . . . . . . . . . . . . . 21

                    B: Glossary of Selected Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    C: National Quality Forum Serious Reportable Events . . . . . . . . 26

                    D: Centers for Medicare & Medicaid Services Categories of
                       Hospital-Acquired Conditions . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    E: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    F: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . 33

                    G. Tables of All Adverse Events and Temporary Harm Events
                       Identified in Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                    H: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To estimate the incidence of adverse events for hospitalized Medicare
                  beneficiaries in two selected counties.


                  BACKGROUND
                  Statutory Mandate and Office of Inspector General Response
                  The Tax Relief and Health Care Act of 2006 (the Act) requires that the
                  Office of Inspector General (OIG) study events that cause harm to
                  Medicare beneficiaries. The Act specifically mandates that OIG study
                  the incidence of “never events” among Medicare beneficiaries, payment
                  by Medicare or beneficiaries for services furnished in connection with
                  such events, and administrative processes of the Centers for Medicare &
                  Medicaid Services (CMS) to identify events and deny or recoup
                  payment. OIG is also to report to Congress on the study conducted,
                  including recommendations for such legislation and administrative
                  action as OIG determines is appropriate. (For relevant text of the Act,
                  see Appendix A.)
                  Adverse Events in Hospitals
                  Following a review of Medicare policies and expenditures, as well as
                  consultation with CMS and the Agency for Healthcare Research and
                  Quality (AHRQ), we chose to focus our work on inpatient acute care
                  hospitals. In 2006, 12.5 million Medicare beneficiaries were
                  hospitalized, 1 with inpatient hospital costs constituting the largest
                  portion of Medicare expenditures (32 percent in 2006). 2 Government
                  agencies and private entities have also targeted hospitals for
                  patient-safety initiatives.

                  A variety of terms, lists, and definitions are used to identify and address
                  health care events that result in patient harm. (For a glossary of
                  selected terms, see Appendix B.) The National Quality Forum (NQF)
                  used the term “never event” to describe a specific list of events
                  associated primarily with patient death or serious disability that


                     1 CMS, “Statistics Book,” Table IV.1: Medicare/short-stay hospital utilization, 2008,
                  p. 43. Available online at
                  http://www.cms.hhs.gov/CapMarketUpdates/Downloads/2008CMSStats_xls.pdf. Accessed
                  on November 12, 2008.
                    2 Based on data contained in the Congressional Budget Office (CBO), “Fact Sheet for
                  CBO’s March 2007 Baseline: Medicare,” March 7, 2007. Available online at
                  http://www.cbo.gov/budget/factsheets/2007b/medicare.pdf. Accessed on September 8, 2008.



OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   1
I N T R O D        U C T      I O N


                    “should never occur in a health care setting.” 3 NQF currently uses the
                    term “Serious Reportable Events” to describe this list. (For a list of
                    NQF Serious Reportable Events, see Appendix C.) Since enactment of
                    the Act, patient safety issues have continued to receive much attention
                    by policymakers, the health care industry, and patient advocates. The
                    term “adverse events” is now used more commonly than never events
                    within the health care community to refer to harm experienced by a
                    patient as a result of medical care. As a result, and after consulting
                    with selected congressional committee staff in 2007, OIG modified our
                    approach and terminology to be consistent with evolving patient safety
                    research and industry trends. In doing so, we expanded our focus
                    beyond the list of 28 never events specified by NQF to a broader view of
                    adverse events causing harm to patients.

                    The term “adverse event” describes harm to a patient as a result of
                    medical care. Although an adverse event indicates that the care
                    resulted in an undesirable clinical outcome and may involve medical
                    errors, adverse events do not always involve errors, negligence, or poor
                    quality of care and may not always be preventable. 4 As such, research
                    and policy to ensure patient safety and reduce the occurrence of adverse
                    events often focuses on identifying and addressing systemic problems
                    that may lead to patient harm and avoids labeling the event as an
                    outcome of negligence or poor quality.
                    This broad definition of adverse events reflects not only a variety of
                    possible causes of events, but also a wide range in their effect on
                    patients. Depending on their purpose, researchers, policymakers, and
                    health care entities sometimes adopt different standards for
                    distinguishing between degrees of patient harm in determining whether
                    they classify an occurrence as an adverse event. For example, NQF’s
                    list of Serious Reportable Events focuses on events that cause serious
                    disability and death. The National Coordination Council for Medication
                    Errors Reporting and Prevention (NCC MERP) developed a scale to
                    categorize the level of patient harm resulting from medication errors.
                    The NCC MERP Index for Categorizing Errors considers factors such as
                    whether the occurrences had any effect on the patient and, if so, the
                    degree of harm (see Table 1). The scale includes categories for

                      3 NQF is a public-private membership organization created to develop and implement a
                    national strategy for health care quality measurement and reporting. The list is available
                    online at http://www.qualityforum.org/about. Accessed on October 21, 2008.
                      4 R.M. Wachter, “Understanding Patient Safety,” McGraw-Hill, 2008.




 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   2
I N T R O D        U C T        I O N


                    circumstances or occurrences wherein harm did not reach the patient
                    (categories A-D), often referred to as “near misses,” and those wherein
                    the patient was actually harmed (categories E-I). Researchers have
                    modified this scale for use in measuring and distinguishing adverse
                    events of all types, rather than only medication errors. 5


                      Table 1: The National Coordinating Council for Medication Errors
                      Reporting and Prevention Index for Categorizing Errors

                           Category                                       Description                                      Event
                                                   Circumstances or events occur that have the capacity
                               A
                                                   to cause error.
                                                   An error occurred, but the error did not reach the
                               B
                                                   patient.
                                                                                                                         Harm does
                                                   An error occurred that reached the patient, but did not
                               C                                                                                         not reach
                                                   cause patient harm.
                                                                                                                          patient
                                                   An error occurred that reached the patient and
                                                   required monitoring to confirm that it resulted in no
                               D
                                                   harm to the patient, and/or required intervention to
                                                   preclude harm.
                                                   An error occurred that may have contributed to or
                               E                   resulted in temporary harm to the patient and required
                                                   intervention.
                                                   An error occurred that may have contributed to or
                               F                   resulted in temporary harm to the patient and required
                                                   an initial or prolonged hospital stay.                                  Harm
                                                   An error occurred that may have contributed to or                      reaches
                               G                                                                                           patient
                                                   resulted in permanent patient harm.
                                                   An error occurred that required intervention necessary
                               H
                                                   to sustain life.
                                                   An error occurred that may have contributed to or
                               I
                                                   resulted in patient death.
                     Source: NCC MERP Index for Categorizing Errors, Press Release. “Medication Errors Council Revises
                     and Expands Index for Categorizing Errors: Definitions of Medication Errors Broadened,” June 12, 2001.




                    Medicare Payment for Adverse Events
                    Medicare traditionally did not distinguish between costs incurred for
                    treating existing illnesses and those incurred as the result of adverse
                    events. Medicare reimbursement to inpatient acute care hospitals is
                    generally determined by grouping patient conditions into
                    Diagnosis-Related Groups (DRG) based on the average cost of care for
                    patients with similar conditions. Historically, if a Medicare beneficiary
                    experienced harm from an adverse event that resulted in assignment of

                      5 F.A. Griffin and R.K. Resar, “IHI Global Trigger Tool for Measuring Adverse Events,”
                    Institute for Healthcare Improvement Innovation Series 2007, pp. 4–5.



 OEI-06-08-00220    ADVERSE EVENTS    IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES        3
I N T R O D        U C T        I O N


                    a more expensive DRG, CMS paid the full claim without any payment
                    reduction. 6
                    Hospital-Acquired Conditions. The Deficit Reduction Act of 2005 (DRA)
                    required CMS to select at least two hospital-acquired conditions for
                    which hospitals would not be paid higher Medicare reimbursement. 7
                    CMS issued a final regulation in August 2007 allowing it to deny
                    hospitals higher payment for admissions complicated by any of eight
                    categories of hospital-acquired conditions. CMS chose the categories of
                    conditions in collaboration with the Centers for Disease Control and
                    Prevention and used the following criteria:
                    •     conditions that are high cost, high volume, or both;

                    •     conditions that, when present as a secondary diagnosis, result in
                          assignment of a case to a DRG that has a higher payment;

                    •     conditions that could be reasonably prevented by using readily
                          available evidence-based guidelines; and

                    •     conditions that are identifiable based on one or more unique
                          diagnosis codes. 8
                    In July 2008, CMS issued a final rule expanding the list of
                    hospital-acquired conditions to 10. Effective October 1, 2008, CMS
                    began denying hospitals higher payment for Medicare admissions
                    complicated by these conditions. 9 For the list of CMS categories of
                    hospital-acquired conditions, see Appendix D.

                    Changes to CMS Payment. In addition to designating the list of
                    hospital-acquired conditions, the FY 2008 Inpatient Prospective
                    Payment System Rule implemented a more specific list of DRGs called
                    Medicare Severity Diagnosis-Related Groups (MS-DRG). MS-DRGs
                    split some of the prior DRGs into two or three individual classes based


                      6 U.S. Department of Health and Human Services, CMS, Press Release, “Eliminating
                    Serious, Preventable, and Costly Medical Errors – Never Events,” May 18, 2006. Available
                    online at http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=1863. Accessed on
                    August 28, 2008.
                        7 DRA, § 5001(c), P.L. No. 109-171 (adding Social Security Act, § 1886(d)(4)(D);
                    42 U.S.C. § 1395ww(d)(4)(D)), provided for a quality adjustment in DRG payments for
                    certain hospital-acquired conditions.
                      8 Social Security Act, § 1886(d)(4)(D)(iv); Fiscal Year (FY) 2008 Final Inpatient
                    Prospective Payment Systems (IPPS) Rule, 72 Fed. Reg. 47130, 47202 (Aug. 22, 2007).
                      9 Social Security Act, § 1886(d)(4)(D)(i); FY 2009 Final IPPS Rule, 73 Fed. Reg. 48434,
                    48471—48472 (Aug. 19, 2008).



 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   4
I N T R O D        U C T       I O N


                    on the presence of a complication or comorbidity. 10 Beginning
                    October 1, 2007, each medical diagnosis (ICD-9-CM) code 11 submitted
                    must include a new indicator designating whether the condition is
                    present on admission (POA). 12
                    Determining the Incidence of Adverse Events in Hospitals
                    Research indicates that calculating the incidence of adverse events is a
                    complex and difficult task and that no single method is likely to identify
                    all adverse events. 13 Further, researchers often use different definitions
                    and methods, making comparison of adverse event incidence rates
                    problematic. Through a literature review, we identified the following
                    prominent methods for identifying adverse events in hospitals:

                    Patient Survey or Interview. A number of studies have sought to identify
                    adverse events by asking patients and their families whether they
                    detected any problems during their hospital stays, typically through
                    interviews or mail surveys. This information is considered most useful
                    when patients or families are asked about events shortly after they
                    occur. Disadvantages associated with patient surveys include low
                    response rates, poor recollection by patients, and lack of understanding
                    of adverse events or the expected course of treatment.

                    Administrative Data Screening. Automated programs can be used to
                    review administrative data, such as payment claims and hospital
                    discharge data, to identify possible adverse events. Using
                    administrative data allows researchers to screen for adverse events
                    among large numbers of hospitalizations. Prominent administrative
                    data screening methods include:

                    •     Patient Safety Indicators (PSI) Algorithms: AHRQ developed
                          software programs to calculate PSIs using administrative data and
                          distributes this software free of charge to hospitals and researchers.
                          The software is based on a series of algorithms using data commonly
                          available in administrative datasets, such as billing data. These

                        10 42 CFR § 412.10; Final FY 2008 IPPS Rule, 72 Fed. Reg. 47130, 47138 (Aug. 22, 2007).
                        11 The ICD-9-CM system assigns diagnoses and procedure codes associated with
                    hospitalizations and is maintained jointly by the National Center for Health Statistics
                    (NCHS) and CMS. NCHS, “The International Classification of Diseases, 9th Revision,
                    Clinical Modification” (ICD-9-CM), Sixth Edition, was issued for use beginning
                    October 1, 2007.
                        12 Social Security Act, § 1886(d)(4)(D)(iii).
                        13 E.J. Thomas and L.A. Peterson, “Measuring Errors and Adverse Events in Health
                    Care,” Journal of General Internal Medicine, 18(1), 2003, pp. 61—67.



 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   5
I N T R O D        U C T       I O N


                          algorithms detect indicators (e.g., death in a low-risk patient) to help
                          identify potential adverse events.

                    •     Identification of POA Indicators: POA codes were added as a
                          requirement for Medicare billing data in August 2007 to facilitate
                          CMS’s implementation of the new policy for nonpayment of certain
                          hospital-acquired conditions. Hospitals include these indicators
                          with each diagnosis code, allowing analysts to identify conditions
                          that developed during the hospital stay.

                    Review of In-Hospital Incident Reports. Hospitals must measure, analyze,
                    and track quality indicators, including adverse patient events, as a
                    condition of participation for Medicare and Medicaid certification. 14 To
                    accomplish this, hospital staff typically complete “in-house incident
                    reports” when notable events occur. For example, a hospital may
                    require staff to complete an incident report if a patient falls. Hospital
                    managers can use information contained in incident reports to gain
                    awareness of quality improvement needs and address substandard care.
                    Although incident reports are likely a valuable source of information,
                    research indicates that not all events are reported.

                    Medical Record Screening. Although it is not a complete medical record
                    review, medical record screening can identify potential adverse events
                    based on information in the medical record. One prominent screening
                    tool, the Institute for Healthcare Improvement (IHI) Global Trigger Tool
                    (GTT), uses a retrospective review of medical records to identify
                    “triggers” that could signal patient harm. 15 The GTT also categorizes
                    the level of harm using the NCC MERP patient harm scale. The
                    purpose of the NCC MERP index is to track errors in a consistent,
                    systematic manner. 16 IHI adapted the index for use as part of the
                    GTT to classify harm associated with adverse events.

                    Medical Record Review. Medical record review is often considered the
                    most definitive method for detecting adverse events because it can
                    provide much detail about both the adverse event and the surrounding


                        14 42 CFR § 482.21(a)(2).
                        15 Some triggers are adverse events by definition. Additionally, reviewers may identify
                    adverse events without a trigger and may find triggers that are not adverse events.
                        16 NCC MERP, Press Release. “Medication Errors Council Revises and Expands Index
                    for Categorizing Medication Errors: Definitions of Medication Errors Broadened,” June 12,
                    2001. Available online at http://www.nccmerp.org/press/press2001-06-12.html#index.
                    Accessed on October 14, 2008.



 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   6
I N T R O D        U C T      I O N


                    circumstances. For example, medical record reviews can provide
                    information about the patient’s condition prior to and following the
                    event. However, researchers report that records often have incomplete
                    descriptions and insufficient documentation. 17 Also, record reviews rely
                    on the subjective judgment of the reviewer, and conditions caused by
                    adverse events can be difficult to distinguish from preexisting or
                    unpreventable conditions.


                    METHODOLOGY
                    Scope
                    In this report, we provide an estimated rate of adverse events for
                    Medicare beneficiaries discharged from hospitals in two counties during
                    a 1-week period in August 2008, as well as specific rates of incidence for
                    adverse events included on NQF’s and CMS’s lists. To determine a
                    meaningful rate of adverse events, we incorporated criteria developed
                    by NQF, CMS, and NCC MERP. We included in our analysis all patient
                    harm that occurred during the hospitalization, regardless of whether it
                    was preventable. We conducted these activities during August–October
                    2008. For a detailed description of our methodology, see Appendix E.
                    Sample Selection
                    To determine adverse event incidence rates, we sampled Medicare
                    hospital discharges within two counties in different States. 18 From each
                    of the population of 24 hospitals in the two counties, we obtained lists of
                    all Medicare-enrolled beneficiaries who were discharged during the
                    week of August 10–16, 2008. From a combined list of 2,549 hospital
                    discharges, we randomly selected a total of 310 Medicare
                    hospitalizations. Unless otherwise noted, results in this report are
                    projected to all eligible discharges from the 24 hospitals during the
                    sampled week. We determined that 32 sample hospitalizations were
                    ineligible for review, typically because the Medicare beneficiary was not
                    an inpatient for at least 24 hours. A total of 278 sample hospitalizations
                    met our criteria for review and are the focus of this report. Among
                    the 278 Medicare beneficiaries in the sample, the average age was


                      17 M.M. Rosenthal, P.L. Cornett, K.M. Sutcliffe, and E. Lewton, “Beyond the Medical
                    Record: Other Modes of Error Acknowledgment,” Journal of General Internal Medicine,
                    20(5), May 2005, pp. 404–409. Abstract available online at
                    http://www.ncbi.nlm.nih.gov/pubmed/15963161. Accessed on October 10, 2008.
                      18 Because the Act stipulates that OIG shall not release facility-specific information, we
                    do not name the counties in this report.



 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   7
I N T R O D        U C T     I O N


                    77 years, with a range of 24 to 102 years; and the average length of
                    hospitalization was 6 days, with a range of 1 to 53 days.
                    Analysis
                    We conducted a two-stage review to identify adverse events. The first
                    stage included five distinct screening processes designed to identify
                    sampled hospitalizations that appeared likely to include an adverse
                    event. The screening processes included:

                    •   beneficiary interviews,

                    •   administrative data screening using AHRQ’s PSI program,

                    •   analysis of POA indicators included in administrative billing data,

                    •   reviews of hospital incident reports related to the hospitalization,
                        and

                    •   targeted medical record screening using the IHI GTT protocol.

                    For the second stage of review, we included only hospitalizations with
                    potential adverse events flagged by one or more of these screening
                    processes. This stage consisted of a full physician review of the medical
                    record. The use of multiple screening processes allowed us to test the
                    utility of various screening methods in preparation for future work to
                    determine a national adverse events incidence rate. The screening
                    processes also allowed us to reduce the number of hospitalizations
                    requiring medical record review by a physician.

                    In the second stage of review, contracted physicians conducted an onsite
                    medical review (183 hospitalizations were flagged for this stage of
                    review). The medical review protocol included a review of the
                    information from the five screening processes for the flagged
                    hospitalizations and the full medical record. Physician reviewers
                    completed a structured medical review protocol that required them to
                    describe the adverse event, the documentation that led to their
                    identification of the event, and the level of harm to the patient using the
                    NCC MERP harm scale. We include in this report only adverse events
                    identified or confirmed by the physician reviewers.

                    Based on the results of the physician medical record review, we
                    calculated adverse event incidence rates as the proportion of Medicare
                    beneficiaries with at least one qualifying adverse event. To calculate an
                    overall adverse event incidence rate, we focused on the areas of interest
                    outlined in the Act: serious adverse events that may have payment
                    implications for Medicare or beneficiaries. Therefore, we calculated an

 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   8
I N T R O D        U C T     I O N


                    overall adverse event incidence rate to include events meeting any of
                    the following criteria:

                    1.    NQF’s list of Serious Reportable Events, as the Act mandates;

                    2.    CMS’s list of hospital-acquired conditions; and

                    3.    level of patient harm determined by physicians to have resulted in
                          a prolonged hospital stay, permanent harm, life-sustaining
                          intervention, or death (classified as F–I on the NCC MERP scale).
                    This overall adverse event incidence rate does not include events that
                    physician reviewers identified as temporary harm events (classified as
                    E-level of harm on the NCC MERP scale). We excluded these
                    temporary harm events from our overall rate because we determined, in
                    consultation with physician reviewers, that the effect of these
                    events was not comparable to the more serious events meeting the three
                    criteria. We calculated a separate incidence rate for these temporary
                    harm events, as well as separate rates for the NQF list, the CMS list,
                    and the events classified as F-I on the NCC MERP scale.

                    We also analyzed administrative billing data for adverse events that
                    were included on NQF’s or CMS’s list. We calculated the effect of
                    adverse events on Medicare payment using CMS’s MS-DRG Assignment
                    with Medicare Code Editor V25. We did not calculate the effect on
                    Medicare payment for adverse events not on the CMS or NQF lists.
                    Limitations
                    Findings from this study are limited to the particular geographic area
                    and timeframe covered by our review and cannot be generalized to the
                    Medicare population at large. Further, it is unlikely that our
                    methodology identified all adverse events within our sample. The
                    screening processes may have failed to flag adverse events and we
                    included adverse events only when the medical record confirmed the
                    event. In some cases, missing information in medical records, if
                    available, may have identified additional instances of adverse events.
                    Quality Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   9
        Δ       F I N D I N G S

  Fifteen percent of hospitalized Medicare beneficiaries           Of the 278 Medicare beneficiaries in
in two selected counties experienced an adverse event              our sample, 41 experienced an
                              during their hospital stays          adverse event during their hospital
                                                                   stays that met at least one of our
                              criteria: events on NQF’s list of Serious Reportable Events, events on
                              CMS’s list of hospital-acquired conditions, or events involving a
                              prolonged hospital stay, permanent harm, life-sustaining intervention,
                              or death (classified as F-I on the NCC MERP scale). This overall rate
                              does not include events that cause only temporary harm to patients
                              because we determined these events were not comparable to the more
                              serious events included in the rate.
                              After applying statistical methods, we project an estimated 15 percent
                              adverse event incidence rate for the two counties (see Appendix F for
                              confidence intervals). Six of these forty-one hospital patients
                              experienced multiple adverse events, for a total of 51 adverse events.
                              Table 2 lists the number of events, number of affected Medicare
                              beneficiaries, and incidence rate for each of the three criteria.


                               Table 2: Incidence of Adverse Events Among Medicare Beneficiaries in Two
                               Selected Counties
                                                                                                             Sample                       Projected

                                                                                                   Number of         Number of       Percentage
                                                                                                    Identified        Medicare       of Medicare
                              Category of Events                                                      Events       Beneficiaries    Beneficiaries


                              NQF Serious Reportable Events                                                 3                 2               0.7%


                              CMS Hospital-Acquired Conditions                                             11                10               3.7%


                              NCC MERP F-I Level Events                                                    43                36             13.2%


                              (Overlapping Events)*                                                        (6)               (7)            (2.6%)

                                    Total                                                                  51                41              15.0%
                              Source: OIG analysis of 278 Medicare beneficiary hospitalizations in two selected counties, 2008.
                              *Some adverse events met more than one criterion and overlap the three categories.




                              We grouped the 51 adverse events into four broad categories:
                              complications associated with surgery or other hospital procedures
                              (43 percent), hospital-acquired infections (35 percent), medication-
                              related events (12 percent), and events related to patient care
                              (10 percent). Table 3 lists the 51 adverse events by these four clinical


            OEI-06-08-00220   ADVERSE EVENTS    IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES        10
F   I N D I N G       S



                      categories. For a list of all adverse events with more complete
                      definitions and the associated level of harm, see Appendix G.

                          Table 3: Adverse Events Identified Among Hospitalized Medicare
                          Beneficiaries in Two Selected Counties by Type (n = 51)
                                                                                                                           Adverse Events
                                                                                                                           and Percentage
                          Types of Adverse Events                                                                           of Total Events
                          Events Related to Surgery or Other Procedures                                                               22 (43%)
                          Excessive bleeding following surgery or procedure                                                                 4
                          Respiratory complications related to surgery or procedure                                                         4
                          Postoperative ileus                                                                                               4
                          Cardiac complications related to surgery or procedure                                                             3
                          Hypotension/blood loss                                                                                            3
                          Blood clots and other occlusions related to surgery or procedure                                                  2
                          Post colostomy bowel obstruction                                                                                  1
                          Premature extubation causing respiratory failure                                                                  1
                          Hospital-Acquired Infections                                                                                18 (35%)
                          Urinary tract infection associated with Foley catheter                                                            6
                          Surgical infection                                                                                                3
                          Respiratory infection (not ventilator associated)                                                                 3
                          Central line infection                                                                                            2
                          Ventilator-associated pneumonia                                                                                   2
                          Gastrointestinal infection                                                                                        1
                          Sepsis as result of delay in performing surgery                                                                   1
                          Events Related to Medication                                                                                 6 (12%)
                          Medication-related hypotension                                                                                    2
                          Medication-related delirium                                                                                       1
                          Medication-related gastrointestinal bleed                                                                         1
                          Kidney damage because of use of contrast                                                                          1
                          Medication-related acute renal insufficiency                                                                      1
                          Events Related to Patient Care                                                                               5 (10%)
                          Stage III pressure ulcer                                                                                          2
                          Stroke and resulting paralysis related to hypoglycemia                                                            1
                          Hypoglycemic coma                                                                                                 1
                          Intravenous volume overload                                                                                       1
                          Source: OIG analysis of 278 Medicare beneficiary hospitalizations in two selected counties, 2008.



                      Seven of the fifty-one adverse events in our sample were “cascade”
                      events wherein an initial adverse event caused a series of additional,
                      related events for the same patient. Our analysis grouped cascade
                      events together into one adverse event. These cascade events were
                      some of the most serious adverse events identified, with six of the seven
                      cascade events identified resulting in life-sustaining intervention,
                      serious disability or death. Six of the seven cascade events began as the

    OEI-06-08-00220   ADVERSE EVENTS        IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES        11
F   I N D I N G        S


                      result of postsurgical complications. For example, one cascade event
                      involved a patient undergoing surgery and developing a bowel
                      obstruction postoperatively, which resulted in hypotension, excessive
                      bleeding, and ultimately required both a blood transfusion and
                      corrective surgery. Two of the postoperative cascades led to patient
                      death; for example, one beneficiary experienced a series of postoperative
                      events including renal and respiratory failure, and subsequently died of
                      a heart attack.
                      Fewer than 1 percent of Medicare beneficiaries in two selected counties
                      experienced an event on the National Quality Forum list of Serious
                      Reportable Events
                      Two beneficiaries experienced an adverse event on the NQF list of
                      Serious Reportable Events, and one of these beneficiaries experienced
                      two events on the list. The three NQF events we identified involved two
                      beneficiaries for an estimated incidence rate in the two counties of less
                      than 1 percent (0.7 percent). Both of the beneficiaries developed
                      Stage III pressure ulcers during their hospital stays. (Stage III
                      pressure ulcers are defined as having both skin loss and damage to the
                      tissue below the skin. 19 ) In both cases, the pressure ulcers were
                      classified by physician reviewers as constituting temporary harm
                      because they did not prolong the hospital stay or cause permanent
                      disability to the beneficiary.

                      One of these two patients had a second adverse event on NQF’s list:
                      serious patient disability resulting from poor glycemic control. NQF
                      defines serious disability as loss of a body part, or disability or loss of
                      bodily function lasting more than 7 days or still present at discharge. 20
                      In this case, the patient developed partial paralysis after experiencing a
                      stroke associated with severe hypoglycemia. This same patient died as
                      the result of another adverse event not on NQF’s list: septic shock
                      caused by a bacterial infection.


                        19 Pressure ulcers are classified into four stages by the National Pressure Ulcer Advisory
                      Panel (NPUAP): Stage I is intact skin with nonblanchable redness; Stage II is a shallow
                      ulcer or blister indicating damage to the epidermis; Stage III is damage extending through
                      all the layers of the skin; and Stage IV is damage through all the layers of the skin and
                      underlying muscle, tendons, or bone. NPUAP, “Pressure Ulcer Stages Revised by NPUAP,”
                      February 2007. Available online at http://www.npuap.org/pr2.htm. Accessed on
                      November 18, 2008.
                        20 NQF, “Serious Reportable Events in Healthcare 2006 Update: A Consensus Report,”
                      NQF, Washington, DC. 2007, p. 7. Available online at
                      http://www.qualityforum.org/pdf/reports/sre/txsrepublic.pdf. Accessed on October 10, 2008.



    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   12
F   I N D I N G        S


                      One of the three adverse events on NQF’s list resulted in a higher Medicare
                      reimbursement. In this case, the Medicare beneficiary was a nursing home
                      resident who developed a Stage III pressure ulcer during a 12-day hospital
                      stay. Including the pressure ulcer on the list of billable diagnoses changed
                      the MS-DRG from a class associated with lower-level complications or
                      comorbidities to a class associated with major complications or
                      comorbidities. We determined that this increased the Medicare
                      reimbursement from $7,086 to $9,138, a difference of
                      $2,052 or 29 percent. 21 In the other two cases, the patients’ other
                      complications or comorbidities increased reimbursement to the maximum
                      allowed for the MS-DRG.
                      Four percent of Medicare beneficiaries in two selected counties experienced
                      an event on CMS’s list of hospital-acquired conditions; in one case, the
                      condition resulted in a higher Medicare reimbursement
                      An estimated 3.7 percent of hospitalized Medicare beneficiaries in the
                      two counties had an adverse event on CMS’s list. We identified a total
                      of 11 adverse events in our sample that are on CMS’s list of hospital-
                      acquired conditions; 1 beneficiary experienced 2 of these events,
                      resulting in a total of 10 Medicare beneficiary hospitalizations with an
                      adverse event. Six of the eleven adverse events were catheter-
                      associated urinary tract infections and two were associated with
                      vascular infections of a central line catheter. The remaining three
                      adverse events on CMS’s list were two Stage III pressure ulcers (the
                      same events counted on NQF’s list of Serious Reportable Events) and
                      one case of poor glycemic control resulting in a hypoglycemic coma.
                      One of the eleven adverse events on CMS’s list of hospital-acquired
                      conditions resulted in higher Medicare reimbursement to the hospital.
                      The adverse event on the CMS list that resulted in higher
                      reimbursement is the same adverse event on the NQF list of Serious
                      Reportable Events that resulted in a higher Medicare reimbursement.
                      For the remaining 10 hospitalizations with adverse events on CMS’s
                      list, the hospital-acquired conditions did not lead to higher Medicare
                      reimbursement because the beneficiaries’ other conditions elevated
                      their MS-DRG assignment to a class that included major complications
                      or comorbidities.


                        21 CMS implemented a new ICD-9 code for Stage III pressure ulcers, effective October 1,

                      2008. Because there was no diagnosis code specifying the condition at the time of this
                      hospital stay, we calculated the cost difference using an analogous code (70703).



    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   13
F   I N D I N G        S


                      Hospitals did not always include diagnosis codes reflecting
                      hospital-acquired conditions in claims for Medicare reimbursement.
                      Of the 11 hospital-acquired conditions we identified in our sample from
                      CMS’s list, 7 conditions were not included in the billing data provided
                      by hospitals. 22 Six of these seven cases involved catheter-associated
                      urinary tract infections and the seventh involved poor glycemic control.
                      The exclusion of the diagnosis code for urinary tract infections could
                      result in Medicare paying for associated care without recognizing that a
                      hospital-acquired infection occurred. When a catheter-associated
                      urinary tract infection is acquired in the hospital and included on the
                      bill to Medicare, CMS excludes both the catheter-associated urinary
                      tract infection code and certain associated infection codes in calculating
                      the MS-DRG. However, when the hospital does not include the
                      catheter-associated urinary tract infection code, the remaining
                      associated infection codes may still be included in the calculation and
                      could result in higher reimbursement. Of the six hospitalizations in
                      which the hospitals omitted the catheter-associated urinary tract
                      infection code from the billing data, two hospitalizations included these
                      additional codes that could increase reimbursement.
                      Thirteen percent of Medicare beneficiaries in two selected counties
                      experienced adverse events classified as F-I on the NCC MERP harm scale
                      Based on our medical review, 43 Medicare beneficiaries in two selected
                      counties (13.2 percent) experienced adverse events classified in the four
                      most serious harm categories on the NCC MERP index. For a number
                      of patients, the same type of adverse event, such as infection or
                      medication-related events resulted in a different level of harm
                      depending upon such factors as intervention and the condition of the
                      patient. Table 4 on the next page lists the adverse events by level of
                      harm, using the NCC MERP scale of patient harm.

                       Table 4: Adverse Events Classified as F-I on the NCC MERP Index of
                       Patient Harm (n = 43)
                       Category        Description                                                                     Adverse Events
                           F           Temporary harm, requiring a prolonged hospital stay                                         28
                           G           Permanent harm                                                                               4
                           H           Life-sustaining intervention required                                                        8
                           I           Contributing to death                                                                        3
                       Source: OIG analysis of 278 Medicare beneficiary hospitalizations in two selected counties, 2008.




                        22 We requested billing data directly from the hospitals within a week of discharge.




    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES    14
F   I N D I N G        S




              Identified adverse events illustrate          Differences in the criteria used by
         differences in the lists and criteria that         various entities to define adverse
                           define adverse events            events can present a challenge in
                                                            determining an adverse event
                      incidence rate. The following two examples of adverse events identified
                      in our review illustrate these differences. These examples underscore
                      the differences in the definitions used in the three sets of criteria that
                      make up our overall rate of adverse events: NQF Serious Reportable
                      Events, CMS hospital-acquired conditions, and events classified as
                      F-I on the NCC MERP patient harm scale.
                      NQF’s list of Serious Reportable Events and CMS’s list of hospital-acquired
                      conditions often address the same adverse event but define the event
                      differently. As an example, both lists cite poor glycemic control as a
                      category of adverse event. In our sample of hospitalizations, we
                      identified two adverse events that were manifestations of poor glycemic
                      control and resulted in serious patient harm; one event is represented
                      on NQF’s list and one on CMS’s list. Both adverse events represented
                      serious harm, but they do not count on both lists because of differences
                      in the definition of adverse events by NQF and CMS. Generally
                      speaking, manifestations of poor glycemic control are defined on NQF’s
                      list by the severity of harm and on CMS’s list by the specific type of
                      condition.

                      NQF’s list includes as a reportable event patient death or serious
                      disability associated with hypoglycemia, the onset of which occurs
                      during care at the health care facility. In the case that met this
                      definition, the patient experienced severe hypoglycemia to the point of
                      being near respiratory arrest and resulting in a stroke with permanent
                      partial paralysis on one side of the body. Our physician reviewers
                      classified this event as “G-level” harm on the NCC MERP scale, but it
                      did not meet CMS’s definition of a hospital-acquired condition because
                      the severe hypoglycemia did not lead to a coma (the specific condition
                      related to hypoglycemia within CMS’s category for poor glycemic
                      control).

                      The second sample case met CMS’s definition because the patient’s
                      severe hypoglycemia resulted in a hypoglycemic coma. In this case, a
                      patient with hypoglycemia became nonresponsive and fell into a coma.
                      The coma required life-sustaining intervention to correct, therefore
                      registering as “H-level” harm on the NCC MERP scale. However,

    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   15
       F   I N D I N G        S


                             because the patient did not die or become seriously disabled, the case
                             did not meet NQF’s criteria for a serious reportable event.

                             Five beneficiaries had adverse events that resulted in permanent disability
                             or death that were not on the National Quality Forum list of Serious
                             Reportable Events. The NCC MERP patient harm scale classifies
                             adverse events by level of patient harm rather than by the type of
                             adverse event, with categories for permanent harm and death. NQF’s
                             list focuses largely on serious patient disability or patient death, but the
                             disability or death is reportable only if it is the result of specific events.
                             In addition to the two patients previously noted who experienced events
                             on NQF’s list, two other beneficiaries experienced adverse events that
                             resulted in death and three more experienced adverse events that
                             resulted in permanent disability. In one of these cases, the patient
                             experienced a series of adverse events following a decision to delay
                             surgery and died of sepsis after 51 days in the hospital. In another case,
                             the patient died as the result of a heart attack following surgery. The
                             remaining three patients all experienced surgical or postsurgical
                             complications that resulted in permanent disability. For each of the five
                             adverse events (all of which are included in our overall rate), the
                             patients incurred serious harm but the contributing adverse event was
                             not on NQF’s list or CMS’s list.



  An additional 15 percent of Medicare beneficiaries in            In addition to the adverse events
                                                                   previously discussed, another
two selected counties experienced events during their
                                                                   43 Medicare beneficiaries
        hospital stays that resulted in temporary harm
                                                                   (15.2 percent) experienced events
                             classified on the NCC MERP scale as E-level harm, defined as
                             temporary harm requiring medical intervention (52 events). Also, 16 of
                             the 41 beneficiaries who experienced a more serious adverse event in
                             our overall rate also experienced a temporary harm event (17 events).
                             In consultation with physician reviewers, we determined that these
                             temporary events were not comparable to the more serious adverse
                             events included in our overall adverse event rate.
                             The 69 events classified as temporary harm represent a wide array of
                             events, from swelling at a treatment site to low-level infections (see
                             Table 5). In some cases, the events resulted from standard medical
                             treatment that caused an undesirable outcome in the patient, such as
                             an allergic reaction to medication. These events are of interest to
                             hospitals and others seeking to improve patient safety because they are

           OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   16
F   I N D I N G            S


                          potential indicators of patient care problems and/or systems
                          improvement opportunities. Although many cases of temporary harm
                          represent fairly minor occurrences, others were classified as E-level
                          harm because the patients were in the hospital for lengthy periods as a
                          result of other, more serious, diagnoses, allowing hospitals to address
                          the temporary harm prior to discharge. For a list of all temporary harm
                          events with more complete descriptions, see Appendix G.

                       Table 5: Additional Temporary Harm Events Identified Among
                       Hospitalized Medicare Beneficiaries in Two Selected Counties by Type
                       (n = 69)
                                                                                                                      Adverse Events and
                      Types of Adverse Events                                                                        Percentage of Events
                      Events Related to Medication                                                                                 29 (42%)
                      Medication-related change in mental state                                                                           10
                      Medication-related skin problems                                                                                     8
                      Other medication-related problems                                                                                    7
                      Medication-related hypotension                                                                                       4
                      Events Related to Skin Care                                                                                  13 (20%)
                      Stage I or II pressure ulcer                                                                                        10
                      Skin tear, abrasion, or other breakdown                                                                              3
                      Events Related to Surgery and Other Procedures                                                               13 (19%)
                      Postoperative hypotension                                                                                            4
                      Abnormal bleeding following surgery or procedure                                                                     3
                      Respiratory complications related to surgery or procedure                                                            2
                      Complications related to insertion of endotracheal tube                                                              1
                      Swelling developed at site of central line insertion                                                                 1
                      Postoperative urinary retention                                                                                      1
                      Occlusion of blood supply during procedure                                                                           1
                      Events Related to Glycemic Control                                                                               4 (7%)
                      Episodes of hypoglycemia                                                                                             3
                      Acute nonresponsive episode (not a coma)                                                                             1
                      Events Related to Intravenous Fluids                                                                             5 (7%)
                      Intravenous volume overload                                                                                          3
                      Intravenous infiltrate                                                                                               2
                      Hospital-Acquired Infections                                                                                     2 (3%)
                      Gastrointestinal infection                                                                                           2
                      Other                                                                                                            3 (4%)
                      Nonmedication allergic reaction                                                                                      2
                      Fall leading to skin abrasions                                                                                       1
                      Source: OIG analysis of 278 Medicare beneficiary hospitalizations in two selected counties, 2008.




    OEI-06-08-00220       ADVERSE EVENTS     IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES       17
F   I N D I N G        S


                      In a number of cases, physician reviewers indicated that these
                      temporary harm events could have developed into more serious adverse
                      events with a greater degree of harm without timely intervention. For
                      example, we identified 11 Stage I or Stage II pressure ulcers in our
                      sample. These early stage ulcers can escalate quickly to Stage III or
                      Stage IV without additional medical attention. 23 As another example,
                      one sample Medicare beneficiary experienced a temporary blood vessel
                      blockage in a leg following surgery. Clinical staff identified the problem
                      after discovering that the leg was cool to the touch and restored the
                      blood supply. Our physician reviewers indicated that, had the problem
                      not been addressed, the lack of blood supply would likely have led to
                      gangrene and amputation. Also, if episodes of severe hypoglycemia are
                      closely monitored and addressed quickly, subsequent strokes and other
                      serious complications may be avoided. Finally, our review found three
                      events of E-level Clostridium difficile (C-diff), a highly contagious and
                      potentially dangerous condition of interest to health officials. (C-diff
                      was included on CMS’s list of proposed hospital-acquired conditions in
                      April 2008.) We included only one of the three cases of C-diff in our
                      adverse event rate. In the other two cases of C-diff, clinical staff
                      identified the problem in earlier stages and treated the patient without
                      increased hospitalization.

                      The most common temporary harm events we identified were related to
                      medication. The harm associated with these events was most often
                      changes in the patient’s mental status (such as confusion); hypotension;
                      and skin reactions, such as rashes and hives. The most common
                      interventions to address these problems were to stop giving or to change
                      the medication.




                        23 J.L. Zeller, C. Lynm, R.M. Glass, “Pressure Ulcers,” Journal of the American Medical

                      Association, 296(8), August 23/30, 2006, p. 1020. Available online at http://jama.ama-
                      assn.org/cgi/reprint/296/8/1020.pdf. Accessed on November 18, 2008.



    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   18
Δ   C O N C L U S I O N


                  The Act requires that OIG report to Congress regarding harm caused in
                  health care settings. This study is one of a series of OIG studies designed
                  to meet the requirements of the Act and provides an estimated adverse
                  events incidence rate among hospitalized Medicare beneficiaries in two
                  selected counties.

                  We found that 15 percent of Medicare beneficiaries in our sample
                  experienced an adverse event during their hospital stays, few of which
                  were NQF Serious Reportable Events or CMS hospital-acquired
                  conditions. Further, of the 11 adverse events on CMS’s list of
                  hospital-acquired conditions and the 3 adverse events on NQF’s list of
                  Serious Reportable Events, only 1 resulted in higher Medicare
                  reimbursement to the hospital. We also found that another 15 percent of
                  Medicare beneficiaries experienced events that caused temporary harm
                  that, while not comparable to the more serious adverse events included in
                  our overall rate, may reflect patient care problems and learning
                  opportunities.

                  Although these results are not nationally representative, the extent of
                  adverse events and temporary harm found in this case study
                  substantiates concerns about the incidence of adverse events in hospitals
                  and the importance of safety initiatives to reduce occurrences. Our
                  analysis also calls attention to the difficulty of determining what events
                  should be considered in an adverse event incidence rate and how those
                  events should be identified and defined. Focusing our review on a limited
                  geographic area (two counties) allowed OIG to learn about various
                  methods for identifying adverse events in hospitals. OIG is continuing
                  this work through 2009 and is currently expanding our study of incidence
                  to provide a national estimate of adverse events among hospitalized
                  Medicare beneficiaries.

                  The Act also directs OIG to make recommendations for such legislation
                  and administrative action as OIG determines is appropriate. The Act
                  specifically authorized funding to continue through calendar year 2009
                  and OIG will devote this funding to additional studies involving adverse
                  events. Future reports in this series will include recommendations as
                  appropriate.




OEI-06-08-00220    ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   19
C O   N C L        U S I O    N



                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     We received comments on a draft of this report from AHRQ and from
                     CMS.

                     AHRQ commented that the report was methodologically sound and
                     well-written and indicated that it had no recommendations for any
                     modifications to the report.

                     CMS commended OIG on succinctly capturing the numerous issues
                     surrounding this complex topic, acknowledged technical assistance that
                     it provided to OIG in conducting this study, and indicated that it
                     welcomed continued work with OIG on this issue.

                     CMS reiterated its policies to encourage the prevention of adverse
                     events, including quality measurement and reporting, financial
                     incentives, and program oversight. Regarding financial incentives,
                     CMS outlined the provision to deny payment for care associated with
                     hospital-acquired conditions, indicating that OIG identification of
                     hospital-acquired conditions and their effect on Medicare payment
                     allowed CMS to gain a deeper understanding of the payment policy in
                     practice.

                     CMS also offered a point of clarification regarding the discussion of one
                     of the hospital-acquired conditions, catheter-associated urinary tract
                     infection. We found that in two of six cases of catheter-associated
                     urinary tract infections, hospitals omitted the code that identifies the
                     hospital-acquired condition but submitted other associated infection
                     codes that could result in higher reimbursement. CMS indicated that it
                     is not clear whether the hospitals deliberately omitted the hospital-
                     acquired condition code, which could allow the hospitals to avoid the
                     payment penalty imposed by the hospital-acquired condition payment
                     provision. CMS recommended further evaluation of this issue in OIG’s
                     subsequent study to estimate the national incidence of adverse events.
                     OIG agrees that further evaluation is warranted and will address this
                     issue in future work in this series.
                     For the full text of AHRQ and CMS comments, see Appendix H.




 OEI-06-08-00220     ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   20
Δ   A P P E N D I X                       ~           A

                  Tax Relief and Health Care Act of 2006 24
                  P.L. No. 109-432

                  DIVISION B – MEDICARE AND OTHER HEALTH PROVISIONS
                  TITLE II—MEDICARE BENEFICIARY PROTECTIONS
                  SEC 203 OIG STUDY OF NEVER EVENTS

                  (a) Study.—

                  (1) In general.—The Inspector General in the Department of Health and
                  Human Services shall conduct a study on—

                  (A) incidences of never events for Medicare beneficiaries, including
                  types of such events and payments by any party for such events;

                  (B) the extent to which the Medicare program paid, denied payment, or
                  recouped payment for services furnished in connection with such events
                  and the extent to which beneficiaries paid for such services; and

                  (C) the administrative processes of the Centers for Medicare & Medicaid
                  Services to detect such events and to deny or recoup payments for
                  services furnished in connection with such an event.

                  (2) Conduct of study.—In conducting the study under paragraph (1), the
                  Inspector General—

                  (A) shall audit a representative sample of claims and medical records of
                  Medicare beneficiaries to identify never events and any payment (or
                  recouping of payment) for services furnished in connection with such
                  events;

                  (B) may request access to such claims and records from any Medicare
                  contractor; and

                  (C) shall not release individually identifiable information or facility-
                  specific information.

                  (b) Report.—Not later than 2 years after the date of the enactment of
                  this Act, the Inspector General shall submit a report to Congress on the
                  study conducted under this section. Such report shall include
                  recommendations for such legislation and administrative action, such as



                    24 The Tax Relief and Health Care Act of 2006, P.L. No. 109-432 § 203.




OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   21
A   P   P E N D       I X     ~        A


                      a noncoverage policy or denial of payments, as the Inspector General
                      determines appropriate, including—

                      (1) recommendations on processes to identify never events and to deny
                      or recoup payments for services furnished in connection with such
                      events; and

                      (2) a recommendation on a potential process (or processes) for public
                      disclosure of never events which—

                      (A) will ensure protection of patient privacy; and

                      (B) will permit the use of the disclosed information for a root cause
                      analysis to inform the public and the medical community about safety
                      issues involved.

                      (c) Funding.— Out of any funds in the Treasury not otherwise
                      appropriated, there are appropriated to the Inspector General of the
                      Department of Health and Human Services $3,000,000 to carry out this
                      section, to be available until January 1, 2010.

                      (d) Never Events Defined.—For purposes of this section, the term “never
                      event” means an event that is listed and endorsed as a serious
                      reportable event by the National Quality Forum as of
                      November 16, 2006.




    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   22
A   P   P E N D    I X        B
Δ       A P P E N D I X                        ~            B


                  Glossary of Selected Terms
                  General Terms 25

                  Adverse event—Harm caused by medical care. Identifying adverse
                  events does not imply an error, negligence, or poor quality of care. It
                  does indicate that the care resulted in an undesirable clinical outcome
                  and that the clinical outcome is not related to an underlying disease.
                  Cascade—An adverse event wherein one event led causally to another.

                  Hospital-acquired condition—A medical condition not present prior to
                  admission to a hospital.
                  Medical error—The failure of a planned action to be completed as
                  intended or the use of a wrong plan to achieve an aim.
                  Near miss—An event or a situation that did not produce patient harm,
                  but only because of intervening factors, such as patient health or timely
                  intervention.
                  Never event—An event or situation that should never occur in a health
                  care setting. The National Quality Forum initially used the term “never
                  events” to describe its list of serious adverse events, but began in 2005
                  to refer to the list as “Serious Reportable Events.”
                  Patient safety—Freedom from accidental or preventable injuries caused
                  by medical care.
                  Temporary harm event—Event classified as the lowest level of patient
                  harm on the National Coordinating Council for Medication Errors
                  Reporting Prevention Index for Categorizing Errors. This level of harm
                  is identified as an adverse event that may have contributed to or
                  resulted in temporary harm to the patient and required intervention.




                    25 Sources: Definitions derived from a variety of sources including L.T. Kohn, J.M.
                  Corrigan, and M.S. Donaldson, Eds, “To Err is Human: Building a Safer Health System,”
                  A Report of the Committee on Quality of Health Care in America, Institute of Medicine,
                  Washington, DC, National Academy Press, 1999; R.M. Wachter, “Understanding Patient
                  Safety,” McGraw–Hill, 2008; and the glossary of the Agency for Healthcare Research and
                  Quality Patient Safety Network. Available online at
                  http://www.psnet.ahrq.gov/glossary.aspx. Accessed on October 10, 2008.



OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   23
A   P   P E N D       I X     ~         B


                      Clinical Terms 26
                      Acidosis—An abnormal condition of reduced alkalinity of the blood and
                      tissues that is marked by sickly sweet breath, headache, nausea and
                      vomiting, and visual disturbances and is usually a result of excessive
                      acid production.
                      Blood clot—A coagulated mass produced by clotting of blood.

                      Coronary artery bypass graft (CABG)—Heart bypass surgery performed
                      to route blood flow around clogged arteries supplying the heart.
                      Central line infection—An infection of the intravenous (IV) line that is
                      inserted into a large vein (as the superior vena cava) typically in the
                      neck or near the heart for therapeutic or diagnostic purposes (as to
                      administer medicines or fluids or withdraw blood).
                      Deep vein thrombosis (DVT)—A condition marked by the formation of a
                      thrombus within a deep vein (as of the leg or pelvis) that may be
                      asymptomatic or be accompanied by symptoms (as swelling and pain)
                      and that is potentially life threatening if dislodgment of the thrombus
                      results in pulmonary embolism.
                      Hemiparesis—Muscular weakness or partial paralysis restricted to one
                      side of the body.
                      Hypertension—Abnormally high arterial blood pressure that is chiefly of
                      unknown cause but may be attributable to a preexisting condition (as a
                      renal or endocrine disorder), that typically results in a thickening and
                      inelasticity of arterial walls and hypertrophy of the left heart ventricle,
                      and that is a risk factor for various pathological conditions or events
                      (such as heart attack, heart failure, stroke, end-stage renal disease, or
                      retinal hemorrhage).
                      Hypotension—Abnormally low pressure of the blood; also called low
                      blood pressure.
                      Hypoglycemia—Abnormal decrease of sugar in the blood.

                      Ileus—An obstruction of the bowel; specifically, a condition that is
                      commonly marked by a painful distended abdomen, vomiting of dark or


                        26 National Institutes of Health, U.S. National Library of Medicine, “Medline Plus
                      Medical Dictionary,” updated February 4, 2003. Available online at
                      http://www.nlm.nih.gov/medlineplus/mplusdictionary.html. Accessed on
                      November 10, 2008.



    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   24
A   P   P E N D       I X     ~         B


                      fecal matter, toxemia, and dehydration and that results when the
                      intestinal contents back up because peristalsis fails although the lumen
                      is not occluded.
                      Pressure ulcer—An ulceration of tissue deprived of adequate blood
                      supply by prolonged pressure; called also decubitus, decubitus ulcer,
                      and pressure sore.
                      Pulmonary edema—Abnormal accumulation of fluid in the lungs.

                      Sepsis—A systemic response typically to a serious, usually localized
                      infection (as of the abdomen or lungs) especially of bacterial origin that
                      is usually marked by abnormal body temperature and white blood cell
                      count, tachycardia, and tachypnea; specifically, systemic inflammatory
                      response syndrome induced by a documented infection.
                      Urinary tract infection (UTI)—An infection of the tract through which
                      urine passes and which consists of the renal tubules and renal pelvis of
                      the kidney, the ureters, the bladder, and the urethra.
                      Ventilator associated pneumonia (VAP)—A disease of the lungs that is
                      characterized especially by inflammation and consolidation of lung
                      tissue followed by resolution; is accompanied by fever, chills, cough, and
                      difficulty in breathing; and is caused chiefly by infection that enters the
                      lungs through a ventilator.




    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   25
      Δ            A P P E N D I X                                  ~           C



                      National Quality Forum Serious Reportable Events 27
                      The National Quality Forum (NQF) list is separated into six categories: “Serious
                      disability” is defined as loss of a body part, disability, or loss of bodily function
                      lasting more than 7 days or still present at time of discharge.

Table C1: The National Quality Forum List of Serious Reportable Events
Surgical Events
 A.    Surgery performed on the wrong body part
 B.    Surgery performed on the wrong patient
 C.    Wrong surgical procedure performed on a patient
 D.    Unintended retention of foreign object in a patient after surgery or procedure
 E.    Intraoperative or immediately postoperative death
Product or Device Events
 A.    Patient death or serious disability associated with the use of contaminated drugs, devices, or biologics provided by the health care facility
 B.    Patient death or serious disability associated with use or function of a device in patient care in which the device is used or functions other than as
        intended
 C.    Patient death or serious disability associated with intravascular air embolism that occurs while being cared for in a health care facility
Patient Protection Events
 A.    Infant discharged to the wrong person
 B.    Patient death or serious disability associated with patient elopement
 C.    Patient suicide, or attempted suicide resulting in serious disability, while being cared for in a health care facility
Care Management Events
 A.    Patient death or serious disability associated with a medication error
 B.    Patient death or serious disability associated with a hemolytic reaction because of administration of incompatible blood or blood products
 C.    Maternal death or serious disability associated with labor or delivery in a low-risk pregnancy while being cared for in a health care facility
 D.    Patient death or serious disability associated with hypoglycemia, the onset of which occurs while patient is being cared for in a health care facility
 E.    Death or serious disability associated with failure to identify and treat hyperbilirubinemia in neonates
 F.    Stage III or Stage IV pressure ulcers acquired after admission to a health care facility
 G.    Patient death or serious disability because of spinal manipulative therapy
 H.    Artificial insemination with the wrong donor sperm or wrong egg
Environmental Events
 A.    Patient death or serious disability associated with an electric shock while being cared for in a health care facility
 B.    Any incident in which a line designated for oxygen or other gas to be delivered to a patient contains the wrong gas or is contaminated by toxic
        substances
 C.    Patient death or serious disability associated with a burn incurred from any source while being cared for in a health care facility
 D.    Patient death or serious disability associated with fall while cared for in a health care facility
 E.    Patient death or serious disability associated with the use of restraints or bedrails while being cared for in a health care facility
Criminal Events
 A.    Care provided by someone impersonating a health care provider
 B.    Abduction of a patient of any age
 C.    Sexual assault on a patient within or on the grounds of a health care facility
 D.    Death or significant injury resulting from a physical assault that occurs within or on the grounds of the facility


                                        27 NQF, “Serious Reportable Events in Healthcare 2006 Update: A Consensus Report,”

                                     National Quality Forum, Washington, DC, 2007, p. 7. Available online at
                                     http://www.qualityforum.org/pdf/reports/sre/txsrepublic.pdf. Accessed on October 10, 2008.



         OEI-06-08-00220             ADVERSE EVENTS    IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   26
Δ         A P P E N D I X                           ~           D


                  Centers for Medicare & Medicaid Services Categories of
                  Hospital-Acquired Conditions
                  The Centers for Medicare & Medicaid Services (CMS) list of
                  hospital-acquired conditions is divided into 10 categories. Effective
                  October 1, 2008, CMS no longer pays a higher reimbursement for
                  hospitalizations complicated by these categories of conditions.

                  Table D1: The Centers for Medicare & Medicaid Services List of
                  Hospital-Acquired Conditions
                  1. Foreign object retained after surgery
                  2. Air embolism
                  3. Blood incompatibility
                  4. Pressure ulcers (stages III and IV)
                  5. Falls
                  A. Fracture
                  B. Dislocation
                  C. Intracranial injury
                  D. Crushing injury
                  E. Burn
                  F.   Electric shock
                  6. Manifestations of poor glycemic control
                  A. Hypoglycemic coma
                  B. Diabetic ketoacidosis
                  C. Nonkeototic hyperosmolar coma
                  D. Secondary diabetes with ketoacidosis
                  E. Secondary diabetes with hyperosmolarity
                  7. Catheter-associated urinary tract infection
                  8. Vascular catheter-associated infection
                  9. Deep vein thrombosis/pulmonary embolism associated with
                  A. Total knee replacement
                  B. Hip replacement
                  10. Surgical site infection
                  A. Mediastinitis after coronary artery bypass graft (CABG)
                  B. Associated with certain orthopedic procedures involving the
                       a. Spine
                       b. Neck
                       c. Shoulder
                       d. Elbow
                  C. Associated with certain bariatric surgical procedures for obesity
                       a. Laprascopic gastric bypass
                       b. Gastroenterostomy
                       c. Laparoscopic gastric restrictive surgery
                  Source: Fiscal Year 2009 Final Inpatient Prospective Payment System Rule, 73 Fed. Reg. 48434, 48471 (Aug.
                  19, 2008).




OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   27
Δ         A P P E N D I X                           ~           E


        Detailed Methodology
                  Geographic Area Selection
                  For this case study, we selected hospitals in two counties. We chose the
                  narrow geographic scope to minimize logistical difficulties. In
                  determining the geographic areas for our case study, we considered a
                  number of factors. We chose one county from each of two States to
                  provide greater diversity in our population of hospitalizations. We
                  selected counties that (1) had a sufficient number of hospitals so that no
                  single hospital would bear a significant burden in meeting our data
                  collection requests; and (2) had similar demographics, such as
                  population, percentage of residents aged 65 and older, per capita
                  income, and number of hospitals. The selected counties each have 12
                  acute care hospitals, all of which were included in our review. The 24
                  hospitals provided diversity in key characteristics, such as a range of
                  bed sizes from 78 to 780; an ownership mix including nonprofit, public,
                  and private; and both large networks and single-ownership facilities.
                  Sample Selection
                  From each of the 24 hospitals in the two-county area, 28 we obtained lists
                  of all Medicare-enrolled beneficiaries who were discharged during the
                  week of August 10–16, 2008. From a combined list of 2,549 discharges,
                  we randomly selected a total of 310 (300 from one stratum and 10 from
                  another stratum). Unless otherwise noted, results in this report are
                  projected to all eligible discharges from the 24 hospitals in the two
                  counties during this timeframe. Hospitalizations for individual patients
                  were eligible for selection if they met the following criteria:

                  •   the patient was enrolled in Medicare;

                  •   the patient was an inpatient for at least 24 hours;

                  •   the patient was treated as an acute care inpatient (excluding
                      inpatients in psychiatric services, rehabilitation-only services, or
                      long term care); and

                  •   the patient was discharged during our target week:
                      August 10–16, 2008.

                  We initially selected 300 Medicare hospitalizations using a simple
                  random sampling technique. However, one hospital initially provided


                     28 Because the Tax Relief and Healthcare Act of 2006 stipulates that OIG shall not
                  release facility-specific information, we do not name the counties in this report.



OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   28
A P P E N D         I X        ~        E


                      us with an incomplete list of discharges that affected our sampling
                      frame. We then obtained a complete list from this hospital, which
                      resulted in an additional stratum of 46 discharges, from which we
                      randomly selected 10.

                      From among the 300 hospitalizations initially selected, we excluded a
                      total of 32 that were ineligible for review because they did not meet the
                      criteria listed above. Following this, 278 hospitalizations remained in
                      the sample for review. Among the 278 Medicare beneficiaries in the
                      sample hospitalizations, the average age was 77 years with a range of
                      24 to 102 years, and the average length of hospitalization was 6 days
                      with a range of 1 to 53 days. A summary of the sampling design is
                      provided in Table E1.


                          Table E1: Sample Selection
                                                                                                     Stratum 1    Stratum 2           Total
                          Sampling Frame                                                                2,503            46           2,549
                          Original Sample                                                                 300            10            310
                          Ineligible                                                                       32             0             32
                          Final Sample                                                                    268            10            278
                      Source: Office of Inspector General analysis of 278 Medicare beneficiary hospitalizations in two selected
                      counties, 2008.


                      Screening for Potential Adverse Events
                      We conducted a two-stage review to identify adverse events. The first
                      stage included five distinct screening processes designed to identify
                      hospitalizations that appeared likely to include an adverse event. The
                      screening processes included:

                      •      beneficiary interviews,

                      •      administrative data screening using the Agency for Healthcare
                             Research and Quality (AHRQ) Patient Safety Indicator (PSI)
                             program,

                      •      analysis of present on admission (POA) indicators included in
                             administrative billing data,

                      •      reviews of hospital incident reports related to the hospitalization,
                             and

                      •      targeted medical record screening using the Institute for Healthcare
                             Improvement (IHI) Global Trigger Tool (GTT) protocol.




  OEI-06-08-00220     ADVERSE EVENTS        IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES       29
A P P E N D        I X     ~         E


                   The use of multiple screening processes allowed us to test the feasibility
                   and effectiveness of various methods that we are considering for use in
                   future work. The screening processes also allowed us to reduce the
                   number of hospitalizations requiring a full physician medical review.

                   Beneficiary Interviews. For each selected hospitalization, we attempted
                   to conduct structured telephone interviews with the patient or a
                   designated representative to learn about the medical care experienced
                   during the hospital stay. The interview protocol was designed to
                   determine whether patients experienced any episodes that might be
                   considered an adverse event while in the hospital and included
                   questions about medication, procedures, infections, and other events on
                   the National Quality Forum (NQF) and the Centers for Medicare
                   & Medicaid Services (CMS) lists. We completed interviews for patients
                   associated with 79 percent of sampled hospitalizations (220 of 278) and
                   identified 42 hospitalizations for the second stage of review.
                   Analysis of Patient Safety Indicators. Using administrative billing data
                   requested directly from the hospitals, we applied AHRQ’s PSI program
                   to our sample hospitalizations. The PSI program includes algorithms
                   that calculate 27 quality-of-care indicators, 20 of which are
                   provider-level indicators that specify that an adverse event may have
                   occurred. We identified a total of 13 PSIs related to 11 patients and
                   flagged these hospitalizations for the second stage of review.

                   Analysis of Present on Admission Indicators. Using the same
                   administrative billing data, we used POA indicators to identify claims
                   that included diagnoses that were coded as not part of the patient’s
                   condition upon admission. A relatively new requirement for Medicare
                   Part A claims, POA indicator codes require hospitals to make a
                   deliberate clinical distinction about whether diagnoses are present at
                   the time of admission. POA indicators identified 112 hospitalizations
                   that had at least one diagnosis not present at the time of admission. We
                   included these 112 hospitalizations in the second stage of review.

                   Review of In-Hospital Incident Reports. We requested that hospitals
                   provide any internal incident reports associated with our sample
                   hospitalizations. We received 47 incident reports relating to 36 sample
                   hospitalizations from this request. These 36 hospitalizations were
                   flagged for the second stage of review.

                   Targeted Medical Record Screening. Contracted registered nurses
                   conducted a preliminary review of medical records onsite at each
                   hospital to identify potential adverse events. They followed IHI’s GTT

 OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   30
A P P E N D        I X     ~         E


                   protocol, which allows reviewers to identify “triggers” in the medical
                   record that may be indicative of adverse events and then explore the
                   record further to determine whether an event occurred and its resulting
                   level of harm. This protocol relies on a systematic method of reviewing
                   medical records that takes less than 20 minutes per chart. Targeted
                   medical reviews were completed for all sampled hospitalizations and
                   identified 122 hospitalizations for inclusion in the second stage of
                   review.

                   Flagged Hospitalizations. Based on the combined results of these
                   screening processes, we identified 183 hospitalizations for the second
                   stage of reviews: a review of the full medical record by a physician. The
                   five screening processes flagged many of the same hospitalizations.
                   Medical Record Review of Flagged Hospitalizations
                   Three contracted physicians conducted an onsite medical record review
                   of the 183 hospitalizations flagged for potential adverse events. The
                   medical review protocol included a review of the results of the screening
                   processes that flagged the case for review (medical record screening,
                   beneficiary interview, hospital incident report, and/or administrative
                   data), and then a review of the full medical record. Physician reviewers
                   completed a structured medical review protocol that required them to
                   describe the adverse event, the documentation that led to their
                   identification of the event, and the level of harm to the patient using the
                   National Coordination Council for Medication Errors Reporting and
                   Prevention (NCC MERP) Index for Categorizing Medication Errors.
                   Adverse Event Criteria
                   To determine a meaningful overall rate of adverse events among
                   hospitalized Medicare beneficiaries, this study incorporates criteria
                   developed by NQF, CMS, and NCC MERP. We included in our analysis
                   all patient harm incurred during the hospitalization, regardless of
                   whether it was considered preventable. We did not include patient
                   harm that occurred prior to entering the hospital.
                   Data Analysis
                   Physician Review of Findings. Following the onsite medical record
                   review, we verified the adverse event findings with all physician
                   reviewers to ensure that cases were determined consistently and to
                   ensure consensus about complex cases. This process resulted in some
                   changes to our initial adverse event findings. Most changes were
                   exclusions because the identified event did not meet our study
                   definition, most frequently because the adverse event was related to a

 OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   31
A P P E N D        I X     ~         E


                   prior admission. We made additional changes because the physicians
                   determined that the harm was part of the normal progression of the
                   disease or a series of events was redefined into a single “cascade” event.
                   Physician reviewers reached consensus for all hospitalizations.

                   Statistical Analysis. Using information from the physician medical
                   record review, we calculated adverse events incidence rates as the
                   proportion of Medicare beneficiaries with at least one qualifying adverse
                   event. We calculated an overall adverse event incidence rate to include
                   events meeting any of the following criteria:

                   1.     NQF’s list of Serious Reportable Events, as the Act mandates;

                   2.    CMS’s list of hospital-acquired conditions; and

                   3.    the level of patient harm determined by physicians to have
                         resulted in a prolonged hospital stay, permanent harm,
                         life-sustaining intervention, or death (classified as F–I on the NCC
                         MERP scale).
                   This overall adverse event incidence rate does not include events that
                   physician reviewers identified as temporary harm events (classified as
                   E-level of harm on the NCC MERP scale). We excluded these
                   temporary harm events from our overall rate because we determined, in
                   consultation with physician reviewers, that the effect of these
                   events was not comparable to the more serious events meeting the three
                   criteria. We calculated a separate incidence rate for these temporary
                   harm events, as well as separate rates for the NQF list, the CMS list,
                   and the events classified as F-I on the NCC MERP scale.

                   These rates were projected to all hospitalizations meeting our selection
                   criteria in the two counties. Projections were calculated in SUDAAN
                   using a logit transformation with a 95-percent confidence interval.

                   Analysis of Medicare Payments. Following physician review and
                   consensus, we analyzed administrative billing data for adverse events
                   that were included on NQF’s or CMS’s lists. We calculated the
                   anticipated Medicare payment amount and the amount that Medicare
                   would have reimbursed for the hospitalization if the adverse event had
                   not occurred. Medicare payment amounts were calculated using CMS’s
                   MS-DRG Assignment with Medicare Code Editor V25 and Inpatient
                   Prospective Payment System pricing software. These amounts were
                   compared to determine any cost difference. We did not calculate the
                   effect on Medicare payment for adverse events we identified that were
                   not on the CMS or NQF lists.

 OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   32
Δ      A P P E N D I X                                 ~           F



                             Estimates and Confidence Intervals
                             Table F1 provides estimates and 95-percent confidence intervals for key
                             statistics based on analysis of 278 sample hospitalizations. Some of the
                             statistics in Table F1 represent results for subgroups within our sample
                             that we do not reference in the text of the report.


    Table F1: Estimates and Confidence Intervals for Key Statistics
                                                                                                            95-Percent Confidence Interval
                                                                                        Estimate          Lower Bound          Upper Bound
    Percentage of Eligible Hospitalizations (n = 278)
    Overall Rate of Adverse Events                                                          15.00%                 11.43%                 19.44%
    NQF Rate                                                                                 0.73%                  0.20%                 2.67%
    CMS Rate                                                                                 3.66%                  2.05%                  6.45%
    F through I Rate                                                                        13.17%                  9.82%                 17.43%
    Additional E-Level Harm Not in Overall Rate                                             15.22%                 11.65%                 19.65%
    All E Rate                                                                              17.05%                 13.27%                 21.64%
    Multiple Event Rate                                                                      8.78%                  6.07%                 12.50%
    Percentage of Hospitalizations With an Adverse Event (n = 42)
    NQF Rate                                                                                 4.88%                  1.32%                 16.41%
    CMS Rate                                                                                24.39%                 14.13%                 38.74%
    F through I Rate                                                                        87.81%                 74.85%                 94.57%
    Highest Harm Level is E                                                                 12.20%                  5.43%                 25.15%
    Highest Harm Level is F                                                                 54.76%                 40.54%                 68.24%
    Highest Harm Level is G                                                                  7.32%                  2.54%                 19.33%
    Highest Harm Level is H                                                                 19.51%                 10.46%                 33.46%
    Highest Harm Level is I                                                                  7.32%                  2.54%                 19.33%
    Multiple Event Rate                                                                     43.90%                 30.41%                 58.36%
    Percentage of Adverse Events (n = 52)
    NQF Rate                                                                                 5.88%                  1.54%                 19.67%
    CMS Rate                                                                                21.57%                 13.16%                 33.29%
    F through I Rate                                                                        84.31%                 73.39%                 91.29%
    Harm Level is E                                                                         15.67%                  8.71%                 26.62%
    Harm Level is F                                                                         54.90%                 42.13%                 67.06%
    Harm Level is G                                                                          7.84%                  3.33%                 17.37%
    Harm Level is H                                                                         15.69%                  8.31%                 27.63%
    Harm Level is I                                                                          5.88%                  2.24%                 14.56%
    Cascade Rate                                                                            13.73%                  7.71%                 23.24%
    Source: Office of Inspector General analysis and medical review of 278 Medicare beneficiaries hospitalized in two selected counties,
    2008.




OEI-06-08-00220              ADVERSE EVENTS     IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES      33
A     P    P E N D              I X           ~        A
Δ              A P P E N D I X                                    ~            G

                                  Tables of All Adverse Events and Temporary Harm Events
                                  Identified in Sample
                                  Table G1 lists information about all adverse events that made up our
                                  overall rate of 15 percent of hospitalized Medicare beneficiaries (51
                                  adverse events). Table G2 lists information about all additional
                                  temporary harm events we identified (69 events).


 Table G1: Adverse Events Identified Among Medicare Beneficiaries Hospitalized in Two Selected Counties
 by Type, Harm Level, and Whether the Events are National Quality Forum (NQF) Serious Reportable Events
 or Centers for Medicare & Medicaid Services (CMS) Hospital-Acquired Conditions (n = 51)
                                                                                                                       Harm
                                                                                                                                   NQF List     CMS List
Adverse Event                                                                                                          Level
Events Related to Surgery or Other Procedures (22)
 Excessive bleeding following surgery or procedure (4)
 1.     Right groin hematoma at puncture site following stent placement                                                  F
 2.     Wound site infection and hematoma following left knee arthroplasty                                               F
 3.     Trauma and several days of bleeding caused by insertion of Foley catheter                                        F
 4.     Cascade event in which a hematoma and a pseudoanurysm of the right femoral artery developed
                                                                                                                         F
        following interventional catheterization and stent placement
 Respiratory complications related to surgery or procedure (4)
 1.     Acute respiratory failure following cardiac surgery                                                              F
 2.     Partial lung tissue collapse after surgical lung tissue excision                                                 G
 3.     Acute respiratory failure following percutaneous endoscopic gastric feeding tube placement                       H
 4.     Respiratory stridor following procedure                                                                          H
 Postoperative ileus (4)
 1.     Significant ileus following partial colon resection                                                              F
 2.     Significant ileus following partial colon resection                                                              F
 3.     Significant ileus following partial colon resection                                                              F
 4.     Significant ileus following partial colon resection                                                              F
 Cardiac complications related to surgery or procedure (3)
 1.     Cascade event in which right coronary artery dissection and right ventricle laceration occurred
                                                                                                                         H
        during coronary angioplasty surgery
 2.     Rapid atrial flutter                                                                                             H
 3.     Cascade event following aortic valve replacement characterized by myocardial infarction,
                                                                                                                         I
        respiratory failure, oliguric renal failure and cardiac arrest
Hypotension/blood loss related to surgery or procedure (3)
1.     Hypotensive episode during hemodialysis treatment                                                                 F
2.     Postoperative hemodynamic instability                                                                             H
3.     Hypotensive episode during hemodialysis treatment                                                                 H
Blood clots and other occlusions (2)
1.     Deep vein thrombosis of the subclavian vein following the insertion of an intravascular device                    F
2.     Cascade event which included two declotting procedures for the arteriovenous fistula and a
                                                                                                                         G
       subsequent revision of the fistula
Post colostomy bowel obstruction (1)
Cascade event in which a small bowel obstruction along with hypotension and gastrointestinal bleeding
                                                                                                                         G
resulted following a partial colon resection
Premature extubation causing respiratory distress (1)
Respiratory failure following premature extubation necessitating reintubation                                            H




     OEI-06-08-00220              ADVERSE EVENTS      IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES     34
A   P     P E N D               I X           ~          G




 Table G1: Adverse Events Identified Among Medicare Beneficiaries Hospitalized in Two Selected Counties
 by Type, Harm Level, and Whether the Events are National Quality Forum (NQF) Serious Reportable Events
 or Centers for Medicare & Medicaid Services (CMS) Hospital-Acquired Conditions (n =51) (continued)
                                                                                                                               Harm      NQF          CMS
Adverse Event                                                                                                                  Level     List         List
Hospital-Acquired Infections (18)
Urinary tract infection (6)
1.     Urinary tract infection (resistant pseudomonas) associated with a Foley catheter                                         E                      X
2.     Urinary tract infection (Proteus mirabilis) associated with a Foley catheter                                             E                      X
3.     Urinary tract infection (Klebsiella oxytoca) associated with Foley catheter                                              E                      X
4.     Urinary tract infection (Candida) associated with Foley catheter                                                         E                      X
5.     Urinary tract infection (Morganella morganii) associated with Foley catheter                                             E                      X
6.     Urinary tract infection (enterococcus) associated with a Foley catheter                                                  E                      X
Surgical infection (3)
1.     Surgical site infection following procedure                                                                              F
2.     Prolonged fever following surgical procedure                                                                             F
3.     Cascade event in which postoperative persistent enterococcal bacteremia led to multiple complications
                                                                                                                                I
       including significant cardiovascular instability and respiratory failure leading to cardiac arrest
Respiratory infection (not ventilator associated) (3)
1.     Postoperative lower respiratory infection                                                                                F
2.     Hospital-acquired pneumonia                                                                                              F
3.     Hospital-acquired pneumonia                                                                                              F
Central line infection (2)
1.     Central line infection (Vancomycin-resistant enterococcus)                                                               F                      X
2.     Central catheter line sepsis (Staphylococcus epidermidis)                                                                F                      X
Ventilator-associated pneumonia (2)
1.     Ventilator-associated MRSA (Methicillin-resistant Staphylococcus aureus) infection                                       F
2.     Ventilator-associated pneumonia                                                                                          F
Gastrointestinal infection (1)
Gastrointestinal infection (Clostridium difficile) following antibiotic treatment                                               F
Sepsis as result of delay in performing surgery (1)
Cascade event in which septic shock led to respiratory failure, a sacral pressure ulcer, wound disruption, gangrene,
bilateral pleural effusions requiring chest tube insertion, renal failure and ultimately a venous thrombo-embolism              I
(deep vein thrombosis and pulmonary embolism)
Events Related to Medication (6)
Medication-related hypotension (2)
1.     Hypotensive episode while on pain medication (opioid)                                                                    F
2.     Hypotensive episode secondary to cardiac medication (β-blocker)                                                          F
Medication-related delirium (1)
Delirium associated with medication (benzodiazepines)                                                                           F
Medication-related gastrointestinal bleed (1)
Gastrointestinal bleeding from a cecal ulcer on the large ascending colon associated with anti-coagulation
                                                                                                                                F
medication
Kidney damage associated with use of contrast (1)
Kidney dysfunction associated with contrast media                                                                               F
Medication-related acute renal insufficiency (1)
Acute renal failure associated with dehydration secondary to colchicine induced diarrhea                                        F
Events Related to Patient Care (5)
Pressure ulcer (2)
1.     Stage III pressure ulcer                                                                                                 E            X          X
2.     Stage III pressure ulcer                                                                                                 E            X          X
Stroke and resulting paralysis related to hypoglycemia (1)
Stroke and permanent left hemiparesis associated with severe hypoglycemia                                                       G            X
Hypoglycemic coma (1)
Temporary hypoglycemic coma secondary to insulin                                                                                H                       X
Intravenous volume overload (1)
Fluid overload that led to pulmonary edema                                                                                      F
Source: Office of Inspector General (OIG) analysis and medical review of 278 Medicare beneficiaries hospitalized in two selected counties, 2008.



OEI-06-08-00220               ADVERSE EVENTS       IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES       35
A      P     P E N D             I X          ~        G




     Table G2: Temporary Harm Events, E-level on the National Coordinating Council for Medication
     Errors Reporting and Prevention Index for Categorizing Errors (NCC MERP) Patient Harm Scale,
     Identified Among Medicare Beneficiaries in Two Selected Counties by Type (n = 69)
    Adverse Event
    Events Related to Medication (29)
    Medication-related change in mental state (10)
     1. Hallucinations secondary to pain medication (opioid)
     2. Delirium and combativeness secondary to pain medication (hydromorphone)
     3. Delusions and psychosis secondary to pain medication (opioid)
     4. Confusion secondary to pain medication (narcotics)
     5. Confusion and combativeness secondary to medication (benzodiazepine)
     6. Confusion secondary to medication (hydromorphone)
     7. Confusion secondary to pain medication (opioid)
     8. Confusion secondary to pain medication (opioid)
     9. Change of mental status and slurred speech secondary to medication (butyrophenone)
     10. Change of mental status secondary to medication (digoxin)
    Medication-related skin problems (8)
     1. Significant itching secondary to seizure medication
     2. Significant itching secondary to medication (opioid)
     3. Rash secondary to antibiotics (fluoroquinolone)
     4. Significant itching at epidural anesthesia needle insertion site
     5. Skin rash secondary to antibiotic treatment (fluoroquinolone)
     6. Hives secondary to intravenous (IV) contrast
     7. Global rash secondary to steroid treatment (corticosteroid)
     8. Itching secondary to pain medication (opioid)
    Other medication-related problems (7)
     1. Urinary retention secondary to pain medication (opioid)
     2. Leg weakness secondary to epidural anesthesia
     3. Constipation secondary to pain medication (opioid)
     4. Hematuria secondary to anticoagulation therapy (heparin)
     5. Thrush (Candida) infection secondary to antibiotics
     6. Significant white blood cell reduction secondary to antibiotics (glycopeptide)
     7. Constipation secondary to pain medication (narcotics)
    Medication-related hypotension (4)
     1. Hypotension secondary to cardiac medication (β-blocker)
     2. Hypotensive episode secondary to pain medication (opioid)
     3. Hypotension secondary to medication (antiandrogen)
     4. Hypotension and bradycardia secondary to multiple medications
    Events Related to Skin Care (13)
    Pressure ulcer (10)
     1. Stage II pressure ulcer
     2. Stage II pressure ulcer
     3. Stage II pressure ulcer
     4. Stage II pressure ulcer
     5. Stage II pressure ulcer
     6. Stage II pressure ulcer
     7. Stage II pressure ulcer
     8. Stage II pressure ulcer
     9. Stage I pressure ulcer
     10. Stage I pressure ulcer
    Skin tear, abrasion or other breakdown (3)
     1. Cascade event in which digoxin toxicity led to diarrhea and dehydration followed by a Stage I skin breakdown
     2. Skin tear
     3. Skin abrasion caused by goggles worn during procedure




           OEI-06-08-00220            ADVERSE EVENTS     IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   36
 A     P     P E N D                 I X            ~          G




 Table G2: Temporary Harm Events, E-level on the National Coordinating Council for Medication
 Errors Reporting and Prevention Index for Categorizing Errors (NCC MERP) Patient Harm Scale,
 Identified Among Medicare Beneficiaries in Two Selected Counties by Type (n = 69) (continued)
Adverse Event
Events Related to Surgery and Other Procedures (13)
Postoperative hypotension (4)
1. Postoperative hypotension of indeterminate etiology
2. Transient hypotension following endovascular procedure
3. Hypotensive episode following an endovascular procedure
4. Postoperative hypovolemia
Abnormal bleeding following surgery or procedure (3)
1. Traumatic bleeding due to nastrogastric tube insertion
2. Excessive bleeding at epidural anesthesia needle insertion site
3. Swelling and hematoma at the surgical site
Respiratory complications related to surgery or procedure (2)
1. Respiratory distress and subcutaneous emphysema (air trapped in the subcutaneous layer of the skin)
2. Significant right plural effusion following aortic valve replacement surgery
Complications related to endotracheal tube (1)
Difficulty swallowing due to trauma incurred during insertion of endotracheal tube
Swelling developed at site of central line insertion (1)
Lymphedema developed around site of central line insertion point
Postoperative urinary retention (1)
Postoperative urinary retention
Occlusion of blood supply during procedure (1)
Transient occlusion of left lower extremity blood supply during endovascular procedure
Events Related to Glycemic Control (4)
Episodes of hypoglycemia (3)
1. Several episodes of hypoglycemia secondary to insulin
2. Several episodes of hypoglycemia secondary to insulin
3. Transient hypoglycemia secondary to insulin during a period of fasting for surgery
Acute nonresponsive episode related to hypoglycemia (1)
Hypoglycemic event that led to period of unresponsiveness
Events Related to Intravenous Fluids (5)
 Intravenous volume overload (3)
  1. Postoperative fluid overload
  2. Fluid overload that led to exacerbation of chronic heart failure
  3. Fluid volume overload that led to respiratory decompensation
Intravenous infiltrate (2)
  1. Intravenous infiltrate resulting in pain and swelling
  2. Significant local intravenous antibiotic infiltrate
Hospital-Acquired Infections (2)
Gastrointestinal infection (2)
1. Infection (Clostridium difficile) that developed following treatment for bacterial pneumonia
2. Infection (Clostridium difficile) that developed following antimicrobial treatment for enterococcal septicemia
Other (3)
Nonmedication allergic reaction (2)
 1. Contact dermatitis
 2. Allergic reaction to adhesive tape
Fall (1)
Fall occurring during the hospital stay
Source: OIG analysis and medical review of 278 Medicare beneficiaries hospitalized in two selected counties, 2008




      OEI-06-08-00220                  ADVERSE EVENTS         IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   37
Δ   A P P E N D I X                       ~ H


     Agency Comments: Agency for Healthcare Research and Quality




OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   38
  A   P   P E N D       I X     ~         H


Agency Comments: Center for Medicare & Medicaid Services




      OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   39
A   P   P E N D       I X     ~         H




    OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   40
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office, and A. Blaine Collins, Deputy Regional Inspector
                  General for Evaluation and Inspections.

                  Amy Ashcraft and Ruth Ann Dorrill served as team leaders for this
                  study. Other principal Office of Evaluation and Inspections staff from
                  the Dallas regional office who contributed to the report include Tom
                  Browning, Deborah Cosimo, Anthony Guerrero-Soto, Sai Loganathan,
                  Christi Macrina, Deborah McGurk, Jeremy Moore, Lyndsay Patty, and
                  Susan Wolfe; other regional and central office staff who contributed
                  include Rob Gibbons, Veronica Gonzalez, Scott Hutchison, Sue
                  Nonemaker, Julie Taitsman, M.D., and Rita Wurm.




OEI-06-08-00220   ADVERSE EVENTS   IN   H O S P I TA L S : C A S E S T U D Y   OF   INCIDENCE AMONG MEDICARE BENEFICIARIES   41
